TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2012 Statutory Review
                        of Disclosure of Collection Activity
                           With Respect to Joint Returns



                                           July 19, 2012

                              Reference Number: 2012-30-084




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY                             WHAT TIGTA RECOMMENDED
REVIEW OF DISCLOSURE OF
                                                       Although TIGTA made no recommendations in
COLLECTION ACTIVITY WITH                               this report, IRS officials were provided an
RESPECT TO JOINT RETURNS                               opportunity to review the draft report. IRS
                                                       management did not provide any comments.

Highlights
Final Report issued on July 19, 2012

Highlights of Reference Number: 2012-30-084
to the Internal Revenue Service Commissioners
for the Small Business/Self-Employed and the
Wage and Investment Divisions.
IMPACT ON TAXPAYERS
Internal Revenue Code (I.R.C.) Section
(§) 6103(e)(8) gives joint filer taxpayers who are
no longer married or no longer reside in the
same household the right to request information
regarding the IRS’s efforts to collect delinquent
taxes on their joint tax return liabilities. The IRS
has implemented procedures for responding to
those requests. TIGTA believes that these
procedures provide IRS employees sufficient
guidance for handling those requests in
accordance with the law.
WHY TIGTA DID THE AUDIT
This audit was initiated because the IRS
Restructuring and Reform Act of 1998 added
I.R.C. § 7803(d)(1)(B), which requires TIGTA to
annually review and certify the IRS’s compliance
with I.R.C. § 6103(e)(8).
WHAT TIGTA FOUND
IRS procedures provide employees with
sufficient guidance for handling joint filer
collection activity information requests.
However, TIGTA could not determine whether
the IRS fully complied with I.R.C. § 6103(e)(8)
requirements when responding to written
collection activity information requests from joint
filers. IRS management information systems do
not separately record or monitor joint filer
requests, and there is no legal requirement for
the IRS to do so. Further, TIGTA does not
recommend the creation of a separate tracking
system.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 19, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2012 Statutory Review of
                             Disclosure of Collection Activity With Respect to Joint Returns
                             (Audit # 201230005)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is in compliance with Internal Revenue Code (I.R.C.) Section (§) 6103(e)(8) related to the
 disclosure of collection activities to joint filers. The Treasury Inspector General for Tax
 Administration is required, under I.R.C. § 7803(d)(1)(B), to annually evaluate the IRS’s
 compliance with the joint filer provisions of the law. The audit is included in our Fiscal
 Year 2012 Annual Audit Plan and addresses the major management challenge of Taxpayer
 Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (213) 894-4470 (Ext. 128).
                                   Fiscal Year 2012 Statutory Review of Disclosure
                                 of Collection Activity With Respect to Joint Returns




                                              Table of Contents

Background ............................................................................................................ Page 1

Results of Review ................................................................................................. Page 2
          The Internal Revenue Manual Provides Employees Sufficient
          Guidance for Handling Joint Filer Collection Activity
          Information Requests ...................................................................................... Page 2
          Compliance With Statutory Requirements for the Disclosure of
          Collection Activity With Respect to Jointly Filed Tax Returns
          Cannot Be Determined .................................................................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................... Page 4
          Appendix II – Major Contributors to This Report .......................................... Page 6
          Appendix III – Report Distribution List ......................................................... Page 7
          Appendix IV – Previous Audit Reports Related to This Statutory
          Review ........................................................................................................... Page 8
           Fiscal Year 2012 Statutory Review of Disclosure
         of Collection Activity With Respect to Joint Returns




                   Abbreviations

I.R.C.       Internal Revenue Code
IRM          Internal Revenue Manual
IRS          Internal Revenue Service
TIGTA        Treasury Inspector General for Tax Administration
                              Fiscal Year 2012 Statutory Review of Disclosure
                            of Collection Activity With Respect to Joint Returns




                                             Background

The Taxpayer Bill of Rights 21 added Internal Revenue Code (I.R.C.) Section (§) 6103(e)(8),
which gives joint filer taxpayers who are no longer married or no longer reside in the same
household the right to request information regarding the Internal Revenue Service’s (IRS) efforts
to collect delinquent taxes on their joint tax return liabilities.
I.R.C. § 6103(e)(8) requires the IRS to provide, in writing, collection activity information to joint
filers if they send in a written request. After passage of the Taxpayer Bill of Rights 2, the IRS
issued procedures which stated that if I.R.C. § 6103(e)(8) is not specifically cited in the request,
the IRS can provide either an oral or written response,
based upon I.R.C. § 6103(e)(7).
The IRS Restructuring and Reform Act of 19982 added                      The Treasury Inspector General
I.R.C. § 7803(d)(1)(B), which requires the Treasury                          for Tax Administration is
Inspector General for Tax Administration (TIGTA) to                       required to annually evaluate
review and certify annually whether the IRS is                              the IRS’s compliance with
                                                                                 I.R.C. § 6103(e)(8).
complying with the requirements of
I.R.C. § 6103(e)(8).
A study by the IRS concluded there was a low volume of joint filer requests submitted under
I.R.C. § 6103(e)(8). An analysis of six former district offices3 over a six-month period in
Calendar Year 2000 identified only five written joint filer requests. As a result of the study,
management in the Small Business/Self-Employed and Wage and Investment Divisions decided
not to develop a separate system for tracking joint filer information requests.
This review was performed in the offices of the IRS Commissioner and the National Taxpayer
Advocate in Washington, D.C.; the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland; and the Wage and Investment Division Headquarters in Atlanta,
Georgia; during the period April through May 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.

1
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  The IRS now calls these types of locations area offices.
                                                                                                              Page 1
                               Fiscal Year 2012 Statutory Review of Disclosure
                             of Collection Activity With Respect to Joint Returns




                                      Results of Review

The Internal Revenue Manual Provides Employees Sufficient
Guidance for Handling Joint Filer Collection Activity Information
Requests
The provision of the Taxpayer Bill of Rights 2 related to joint filers was enacted out of
congressional concern about the treatment of separated or divorced taxpayers. When introducing
the Bill, Representative Nancy L. Johnson (R-Connecticut) stated:
           The subcommittee learned of many instances where divorced taxpayers who had
           previously signed a joint tax return during their marriage were treated harshly
           when the IRS later disputed the accuracy of their joint tax return. In many cases
           the IRS tried to collect the entire amount of taxes from the wife, even though the
           omitted income or erroneous deductions which caused the deficiency were
           attributable solely to her former husband. All too often, the woman, being
           pursued for payment of taxes due, was not aware that a tax return filed during the
           marriage had been audited or that a deficiency had been imposed on the return.
To address this concern, the IRS revised its Internal Revenue Manual (IRM)4 to include
procedures for responding to taxpayers who file jointly and submit written requests for
information on IRS collection activity. The IRM instructs employees to disclose whether any
attempts have been made to collect the tax due from either of the joint filers, the current
collection status, and the amount collected to date.
The IRM5 also allows employees to provide both oral and written responses to taxpayers. IRS
procedures require employees to respond in writing only when taxpayers specifically cite
I.R.C. § 6103(e)(8) as their authority for making written requests for collection information
on joint return liabilities. If the taxpayer’s written request does not specifically cite
I.R.C. § 6103(e)(8), the IRS has directed employees to provide oral responses when practicable
based upon I.R.C. § 6103(e)(7). The IRS believes oral responses provide good customer service
to taxpayers because the taxpayers get an immediate answer. We believe these procedures
provide IRS employees sufficient guidance for handling these requests in accordance with the
law.




4
    IRM 11.3.2.4.1 (Aug. 29, 2008).
5
    IRM 11.3.2.4.1 (Aug. 29, 2008).
                                                                                                Page 2
                                  Fiscal Year 2012 Statutory Review of Disclosure
                                of Collection Activity With Respect to Joint Returns



Compliance With Statutory Requirements for the Disclosure of
Collection Activity With Respect to Jointly Filed Tax Returns Cannot
Be Determined
IRS management information systems do not record or monitor joint filer requests for
information on collection activities. As such, we could not determine whether the IRS fully
complied with I.R.C. § 6103(e)(8) requirements when responding to written requests from joint
filers because of our inability to identify any joint filer requests received for information on
collection activities. During this review, management from the Small Business/Self-Employed
and Wage and Investment Divisions commented that the IRS’s position has not changed from
last year, and the IRS does not plan to implement a system to identify or track joint filer requests
for collection activity. In addition, there is no legal requirement for the IRS to record or monitor
cases involving these requests.
We do not recommend the creation of a separate tracking system and are making no
recommendations in this report. This is the fourteenth year in which we have reported our
inability to provide an opinion on the IRS’s compliance with the provisions of
I.R.C. § 6103(e)(8).6




6
    See Appendix IV for a list of the prior audit reports related to this statutory review.
                                                                                              Page 3
                             Fiscal Year 2012 Statutory Review of Disclosure
                           of Collection Activity With Respect to Joint Returns



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is in compliance with
I.R.C. § 6103(e)(8) related to the disclosure of collection activities to joint filers. To accomplish
our objective, we:
I.      Obtained confirmation from the Small Business/Self-Employed and Wage and
        Investment Divisions that the IRS neither has, nor plans to implement, a system or
        process to identify or track joint filer requests for collection information relating to the
        requirements of I.R.C. § 6103(e)(8).
II.     Interviewed various IRS and TIGTA personnel responsible for the Taxpayer Advocate
        Management Information System,1 the Entellitrak Communications and Correspondence
        System,2 and the Performance and Results Information System3 to determine whether
        there is a system or process that tracks taxpayer complaints related to the requirements of
        I.R.C. § 6103(e)(8).
III.    Obtained information on the actions taken by the IRS in response to I.R.C. § 6103(e)(8)
        to determine the impact on IRS programs.
        A. Reviewed all prior TIGTA audit reports for the statutory Joint Filer Reviews to
           identify any corrective actions taken by the IRS.4
        B. Reviewed historical and current IRM sections to identify any updates made in
           response to I.R.C. § 6103(e)(8).
        C. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
           identify how the IRS informs taxpayers of their right to request collection information
           on jointly filed tax returns under I.R.C. § 6103(e)(8).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for

1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Entellitrak Communication and Correspondence system is an application used by the IRS to control and track
information and correspondence.
3
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage complaints received and investigations initiated.
4
  See Appendix IV for a list of the prior audit reports related to this statutory review.
                                                                                                         Page 4
                         Fiscal Year 2012 Statutory Review of Disclosure
                       of Collection Activity With Respect to Joint Returns



planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s policies, procedures, and practices for responding to taxpayer
requests relating to the requirements of I.R.C. § 6103(e)(8). Our assessment did not evaluate the
controls for ensuring the IRS’s accuracy in responding to these requests because IRS
management information systems do not record or monitor joint filer requests for information on
collection activities.




                                                                                          Page 5
                        Fiscal Year 2012 Statutory Review of Disclosure
                      of Collection Activity With Respect to Joint Returns



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Doris Hynes, Audit Manager
Frank O’Connor, Lead Program Analyst
Carol Gerkens, Senior Auditor




                                                                                     Page 6
                        Fiscal Year 2012 Statutory Review of Disclosure
                      of Collection Activity With Respect to Joint Returns



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff
Deputy Commissioner Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 7
                        Fiscal Year 2012 Statutory Review of Disclosure
                      of Collection Activity With Respect to Joint Returns



                                                                            Appendix IV

                   Previous Audit Reports Related
                      to This Statutor y Review

TIGTA, Ref. No. 1999-10-077, The Internal Revenue Service’s Procedures for Responding to
Written Requests for Collection Activity From Joint Return Filers Vary From Statutory
Requirements (Sept. 1999).
TIGTA, Ref. No. 2000-10-148, Letter Report: Compliance With Statutory Requirements for the
Disclosure of Collection Information to Joint Filers Cannot Be Determined (Sept. 2000).
TIGTA, Ref. No. 2001-10-126, Letter Report: Full Compliance With Statutory Requirements for
the Disclosure of Collection Information to Joint Filers Cannot Be Determined (Fiscal
Year 2001) (Aug. 2001).
TIGTA, Ref. No. 2002-40-159, Compliance With Statutory Requirements for the Disclosure of
Collection Information to Joint Filers Cannot Be Determined (Aug. 2002).
TIGTA, Ref. No. 2003-40-110, Fiscal Year 2003 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (May 2003).
TIGTA, Ref. No. 2004-40-058, Fiscal Year 2004 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2004).
TIGTA, Ref. No. 2005-40-041, Fiscal Year 2005 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Feb. 2005).
TIGTA, Ref. No. 2006-40-135, Fiscal Year 2006 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Aug. 2006).
TIGTA, Ref. No. 2007-40-119, Fiscal Year 2007 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2007).
TIGTA, Ref. No. 2008-40-099, Fiscal Year 2008 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2008).
TIGTA, Ref. No. 2009-30-046, Fiscal Year 2009 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2009).
TIGTA, Ref. No. 2010-30-026, Fiscal Year 2010 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Feb. 2010).
TIGTA, Ref. No. 2011-30-077, Fiscal Year 2011 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2011).

                                                                                      Page 8
